U.S. Department of the Interior
Office of Inspector General




           AUDIT REPORT


    LAND ACQUISITION ACTIVITIES,
    U.S. FISH AND WILDLIFE SERVICE

             REPORT NO. 99-I-162
              DECEMBER 1998
                                                                          E-IN-FWS-00 l-97

             United States Department of the Interior
                            OFFICE OF INSPECTOR GENERAL
                                    Washington, DC. 20240

                                                                  DEC 2 9 1998
Memorandum

To:         Assistant Secretary for Fish and Wildlife and Parks

From:       Robert J. Williams
            Assistant Inspector

Subject:   Audit Report on Land Acquisition Activities. U.S. Fish and Wildlife Service

This report presents the results of our audit of land acquisition activities conducted by the
U.S. Fish and Wildlife Service. The objective of the audit was to determine whether the
Service conducted land acquisition activities in accordance with applicable laws and
regulations and whether it paid a fair price for the land acquired.

We concluded that the Service did not sufficiently ensure that just compensation was
properly established before it acquired land through purchase or wetland easements.
Although the Service had established procedural requirements for conducting. reviewing, and
updating appraisals and obtaining boundary surveys, we found that the Senice did not fully
comply with these requirements. Sewice officials said that they did not al\vays comply M.ith
these requirements in order to expedite the acquisition process and minimize the cost of land
acquisitions. We also found that the Service’s procedures were insufficient in that they did
not require (1) documentation in the files showing that consideration was given to updating
appraisals over 6 months old. (2) both appraisals to be acceptable when two appraisals were
required, or (3) the purchase price of the property to be adjusted based on the results of the
boundary survey. As a result. the Service did not have sufficient assurance that it paid market
value for 59 fee acquisitions ($38.2 million) of the 205 acquisitions we re\-iewed. The 59
acquisitions included 29 cases in Lvhich the Service may have overpaid lando\vners $748,063
because the number of acres in the appraisal was overstated and 3 cases in which the Senice
may have underpaid landowners $145,06 1 because the number of acres in the appraisal v, as
understated. Also. the Service did not have sufficient assurance thar it paid market value for
462 wetland easements that cost $3.5 million for which just compensation n-as not based on
current data.

In addition, the Service did not ensure that payments to acquire grassland conservation
easements and refuge land Lvere necessary and appropriate. Although the Service’s land
acquisition guidance does not provide for payments to landowners for future or prior year
property taxes or for weed control expenses. Service officials said that thej, paid landowners
for these costs because they believed that the payments were necessary to fully compensate
the landowners for the economic impact of the easements. Also. although the Service had
established procedures for conducting land acquisitions with nonprofit organizations, it did
not provide sufficient oversight to prevent payments for unallowable or unsupported
expenses or to ensure that established procedures for acquiring land from these organizations
were followed. As a result, the Service inappropriately paid $207,425 to 22 landowners for
costs related to grassland conservation easements and paid $66,504 to 3 landowners for
expenses that were not the liability of the Service. Also, the Service paid expenses of
$438,680 that were unsupported or ineligible for reimbursement to nonprofit organizations
which had letters of intent and reimbursed expenses of $189,322 that were in excess of the
fair market value of the acquired land to nonprofit organizations which did not have signed
letters of intent.

We also found that the Service acquired two tracts of land which contained environmental
contaminants without obtaining the required approvals because, according to Service
officials, the additional notification and approval requirements would have delayed the
acquisitions and because field personnel concluded that the contaminants did not represent
a threat to the environment. As a result, the Service may have to pay as much as $722,862
to clean up sites if it is determined that full-scale cleanup is required.

Concerning land exchanges, the Service conducted 13 of the 14 land exchanges we revie\ved
in accordance with applicable laws and regulations and received fair value in these
exchanges. However, in the remaining instance, the Service inappropriately obtained funds
to acquire private land by selling timber worth $190.000 on refuge land to a third party, W’e
believe that this transaction was not conducted in compliance with the statutory requirements
for the use of revenues from timber sales, that it resulted in the Service’s using timber sales
proceeds for unauthorized purposes, and that it may have denied county governments the
revenues to which they were entitled.

In the September 1, 1998, response (Appendix 3) to the draft report from the Director,
U.S. Fish and Wildlife Service, the Service concurred with Recommendations A. 1, A.2. A.4,
B.2. B.3, B.4, C.2, and D. 1 and nonconcurred with Recommendations A.3. B. 1, and C. 1.
Based on the response. we consider Recommendations A-2, A.4, B.2. B.3, B.4. C.2, and D. 1
resolved but not implemented. Accordingly, these recommendations will be referred to the
Assistant Secretary for Policy, Management and Budget for tracking ofimplementation. Also
based on the response, we have revised Recommendation C. 1) and we request that the
Service respond to the revised recommendation and to Recommendations A. 1, A.3, and B. 1,
all of which are unresolved (see Appendix 4). The Service also provided additional
comments on the findings, which we considered in preparing the final report and
incorporated as appropriate.

In accordance with the Departmental Manual (360 DM 5.3) we are requesting a written
response to this report by January. 29, 1999. The response should provide the information
requested in Appendix 4.
The legislation, as amended, creating the Office of Inspector General requires semiannual
reporting to the Congress on all audit reports issued, actions taken to implement audit
recommendations, and identification of each significant recommendation on which corrective
action has not been taken.

We appreciate the assistance of Service personnel in the conduct of our audit.
                                                  CONTENTS
                                                                                                                         Page

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      1

     BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
     OBJECTIVE AND SCOPE .......................................... 2
     PRIORAUDITCOVERAGE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

FINDINGS              AND          RECOMMENDATIONS                          .................................              5

     A.     JUST COMPENSATION ........................................ 5
     B.     PAYMENTS TO LANDOWNERS ................................. 20
     C.     CONTAMINANT SURVEYS ..................................... 28
     D.     LANDEXCHANGES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33

APPENDICES

     1.    CLASSIFICATION OF MONETARY AMOUNTS .................... 34
     2.    U.S. FISH AND WILDLIFE SERVICE OFFICES
             VISITED OR CONTACTED .................................... 35
     3.    U.S. FISH AND WILDLIFE SERVICE RESPONSE ................... 36
     4.    STATUS OF AUDIT REPORT RECOMMENDATIONS ............... 52
covered 79.820 acres (205 fee acquisitions. 96 easements. and 4 leases) and 14 land
exchanges in which 457 acres of Federal land and timber \.alued at about $738.000 plus
equalization payments of about $21,000 were exchanged for 1,233 acres of private land
valued at about $7591000.

We conducted our review at the Service’s headquarters (Central Office) in Arlington,
Virginia, and at the regional offices in Albuquerque, Ne\\- Mexico; Fort Snelling, Minnesota;
Atlanta, Georgia; Hadley, Massachusetts; Denver, Colorado; and Anchorage, Alaska.

Our review was made, as applicable, in accordance with the “Government Auditing
Standards,” issued by the Comptroller General of the United States. Accordingly, we
included such tests of records and other auditing procedures that were considered necessary
under the circumstances. As part of our audit, we evaluated the system of internal controls
in the land acquisition process to the extent we considered necessary. We found internal
control weaknesses in the Service’s procedures for conducting appraisals and contaminant
and boundary surveys. Our recommendations, if implemented. should improve the internal
controls in these areas.

In addition, we reviewed the Secretary’s Annual Statement and Report to the President and
the Congress, which is required by the Federal Managers’ Financial Integrity Act, for fiscal
year 1995 and the Departmental Report on Accountability for Fiscal Years 1996 and 1997
which includes information required by the Act. and the Service’s annual assurance
statement for fiscal year 1997 and determined that no reported weaknesses were within the
objective and scope of our audit.

PRIOR AUDIT COVERAGE

During the past 6 years, the General Accounting Office has not issued any audit reports on
the Service’s land acquisition activities. Hoxvever, the Office ofInspector General issued rhe
audit report “Department of the Interior Land i?\cquisitions Conducted With the Assistance
of Nonprofit Organizations” (No. 92-I-833) in May 1992. which col,ered the U.S. Fish and
Wildlife Service, the National Park Service. and the Bureau of Land hlanagement. The
report concluded that nonprofit organizations helped acquire needed land but that certain
transactions were not adequately controlled to ensure that nonprofit organizations did not
benefit unduly and that the Go\.ernment’s interests n-ere adequately protected. According
to the report, most ofthese transactions occurred in the Fish and Wildlife Service, which paid
the nonprofit organizations about $5.2 million more than the approved market \-alue
($44 million) of the land on 64 transactions. The report also noted that the Service did not
follow established standards for appraising real property. Specifically, appraisals n’ere
adjusted upward without adequate documentary support, land purchases were made without
appraisals or properly approved appraisals, and the values of purchased land were based on
appraisals that averaged over 1 year old. As a result. according to the report, the Department
had little assurance that the fair market value estimates used by the Service were timely,


                                              3
complete, or accurate. The report contained seven recommendations, all of which l\.ere
considered resolved and implemented. However, our current audit found that the Senice
was not fully complying \\.ith the requirements for conducting. reviewing, and updating
appraisals.




                                          4
                 FINDINGS AND RECOMMENDATIONS

A. JUST COMPENSATION

The U.S. Fish and Wildlife Service did not sufficiently ensure that just compensation (the
amount to be offered to the landowner) was properl?- established before it acquired land
through purchase or wetland conservation easements. Federal land acquisition laws (42
U.S.C. 4651[3]) and regulations (49 CFR 24.102) require the Service to establish just
compensation before negotiating land acquisitions and to base just compensation on the
appraised market value of the property. Although the Service had established procedural
requirements for conducting, reviewing, and updating appraisals and obtaining boundary
surveys, we found that the Service did not f%lly comply with these requirements. Service
officials said that they did not always comply with these requirements in an effort to expedite
the acquisition process and minimize the cost of land acquisitions. We also found that the
Service’s procedures ,were insufficient in that they did not require (1) documentation in the
files showing that consideration was given to updating appraisals over 6 months old, (2) both
appraisals to be acceptable when t\vo appraisals were required. or (3) the purchase price of
the property to be adjusted based on the results of the boundary survey. As a result. the
Semite did not have sufficient assurance that it paid market Lralue for 59 fee acquisitions
(22.741 acres totaling $38.2 million) of the 205 fee acquisitions we reviewed. The
59 acquisitions include 29 cases in which the Service ma>- have overpaid landowners about
$748.063 because the number of acres in the appraisals \\-as overstated (by 378 acres) and
3 cases in cvhich the Service may have underpaid lando\\-ners about S 145,061 because the
number of acres in the appraisals \t 3s understated (bj- 22 acres). In addition, the Ser\?ice did
not have sufficient assurance that it paid market \.alur for the 462 wetland easements
(22,261 acres totaling $3.5 million) acquired during the scope of our review because just
compensation kvas not based on current data.

Appraisals

Service guidance on establishing just compensation is contained in the Service‘s Appraisal
and Appraisal Review Handbooks and its Manual. The Handbooks state that an appraisal
should be obtained for all land acquisitions and that the appraisals “must be reviewed and
approved . . . before the respecri1.e values are used by the Senice” to establish just
compensation. Regarding the review of appraisals. the Review Handbook requires the
re\iecver to “decide whether a report [appraisal] is acceptable” and to document the
reliewer’s conclusions “so that there can be no question as to the reviewer’s position” on
matters such as “over-all acceptabiliQ.“i According to the Handbooks. two appraisals should



‘The Fish and Wildlife Service Manual (343 FW 2.5) states that a report is an “acceptable document” if it
“adequately supports a reasonable and rational estimate of value.”

                                                    5
be obtained for acquisitions exceeding $750,000, and consideration should be given to
updating appraisals over 6 months old. Overall. we found that the Service did not fully
comply with the Handbook guidance for establishing just compensation in 2 1 acquisitions
(16,656 acres at a cost of $17.3 million) and did not obtain two acceptable appraisals in
10 acquisitions (3,863 acres at a cost of $12.3 million) because it had not established a
requirement that both appraisals obtained should be acceptable. As a result, of the 205 fee
acquisitions we reviewed, the Service did not have sufficient assurance that market value was
paid for 28 acquisitions (18,421 acres at a cost of $27.7 million).6

     Appraisal Preparation. Overall, we found that the Service complied with its appraisal
preparation requirements in about 98 percent (200 out of 205) of the fee acquisitions we
reviewed. However, the Service did not obtain appraisals for four tracts (26.3 acres) for
which it paid $781,300 and could not provide a copy of an appraisal for one tract (340 acres)
for which it paid $330,000. For example:

       - On August 14, 1996, an organization offered to sell a 24-acre tract to the Southeast
Region for $225,000 and to donate a 1,200-acre tract to the Region, both of which would
become part of the Big Branch Marsh National Wildlife Refuge in Louisiana. On August 27,
1996, the organization increased the sales price of the 24-acre tract to $325,000. Although
the Region did not obtain an appraisal for either tract, a Regional staff appraiser prepared a
“value opinion,” which stated that the smaller tract of land had a value of $120,000 based on
“very limited” comparable sales in the area. The staff appraiser attributed the $205,000
difference to the 1,200-acre tract (which was supposed to have been a donation), stating that
the S 17 1 per acre value for this tract “is considerably below traditional market values of
similar types of properties” and that “both tracts are worth not less than $325,000 (overall)
or $266 per acre.” On September 20, 1996, a Deed of Gift was recorded in which the
organization donated the 1,200-acre tract to the Service, and on September 25, 1996, the
Service paid $325,000 to the organization for the 24-acre tract. Because the Service bought
the land without obtaining an appraisal, we could not determine whether the Service paid
market value for the land.

      - Three landowners offered to sell 1.8 acres of land to the Service for a total of
$456,300. The tracts, which were acquired for the Archie Carr National Wildlife Refuge in
Florida, were not appraised, although a Service staff appraiser did prepare an “Assessment
of Value” memorandum in February 1995. The memorandum stated that the tracts kvere
“worth the offered prices” and that “these amounts are not above fair market value and are
values in the accepted range for property values ofthis type in this market.” Service officials
stated that since the landowners offered the tracts at a reasonable value, official appraisals
were not necessary. However, the officials could not identify any regulation, policy, or



‘We found that 3 of the 3 1 acquisitions (2,099 acres at a cost of $1 Xi million) were deficient in both areas
(noncompliance with Service guidelines and not having two acceptable appraisals).

                                                      6
guidance that would authorize the Service to acquire land \\ithout obtaining a valid appraisal
(except land with a value of less than $10.000. according to the Appraisal Handbook).

      Two Appraisals. The Service did not fully comply with the requirement to obtain two
appraisals for certain land acquisitions. The Service’s Appraisal Handbook requires that a
second appraisal be prepared by a qualified contract appraiser or an appraiser from a different
region for property that is “unique, ” “controversial.” or “complex” or that has an estimated
value exceeding $750,000 and that the Service establish just compensation based on the
value established by one or more of the acceptable appraisals.

We reviewed 40 acquisitions that exceeded $750,000 and found that the Service did not
obtain two appraisals for 11 acquisitions totaling 14,06 1 acres at a cost of $14.2 million. For
19 of the 40 acquisitions, the Service obtained a waiver from the two-appraisal requirement
in 2 cases and obtained two acceptable appraisals in the remaining 17 cases. The Service
approved and paid the lower appraised value in 11 of the 17 cases.7 which we believe
illustrates the benefit of obtaining two acceptable appraisals.

Although the Service obtained two appraisals for the 10 other cases, the review appraisers’
reports did not clearly conclude whether both of the appraisals were acceptable. In seven
cases, the reviewers stated that only one of the two appraisals was acceptable, and in three
cases, the reviewers did not state Lvhether either of the t\vo appraisals was acceptable.
According to the Appraisal Review Handbook. “The reviewer must decide whether a report
is acceptable and then decide from among one or more acceptable reports Lvhich report Lvill
be used as the Service’s ‘approved appraisal.‘” The Handbook further states. “It is the
reviewer’s ultimate responsibility to conclude \\%rther the appraisal report itself arrives at
a logical and reasonable and therefore acceptable conclusion based on the facts presented.”

Service officials said that even though the revie\vers’ reports did not specifically state that
the appraisals Lvere acceptable, payment for an appraisal represented acceptance and that
even though they required two appraisals for certain land acquisitions. they did not require
that both appraisals have to be acceptable. In our opinion. if the Service is going to require
two appraisals. it should require both appraisals to be acceptable products that meet appraisal
standards and provide a logical and reasonable estimate of market \.alue. In addition. \ve
believe that when a review appraiser identifies deficiencies or questionable issues in
appraisals, the revie\ver should send the appraisal back to the appraiser for correction or
clarification. For example:

      - A review appraiser reviewed two appraisals for a parcel containing 1,783 acres. One
appraisal estimated the market value of the land at $650 per acre. or $1.16 million. The other
appraisal estimated the value at $716 per acre. or S1.28 million. The review appraiser did
not document his acceptance of either appraisal. as required by the Appraisal Review
Handbook. Instead, the review appraiser accepted and approved the landowner’s original


‘For the remaining six cases, the higher value was approved and paid in four cases. the higher value \vas
approved but the Service acquired the land at less than the appraised value in one case. and both appraisals
resulted in the same value in the remaining case.

                                                     7
offer of $700 per acre. or $1.25 million. as the just compensation without obtaining
subsequent approval from the Service’s Chief Appraiser.

       - In late 1991, the Service obtained two appraisals for a 1,506-acre tract: one that
valued the tract at $3.32 million and the other that valued the tract at $2.26 million. The land
was being considered for joint acquisition by the Sen-ice and the Minnesota Department of
Natural Resources. The review appraiser accepted the $2.26 million appraisal but did not
accept the $3.32 million appraisal, which had placed a higher value on the land based on its
potential for residential development use, stating that the appraisal was “very subjective,
almost conjectural, and contain[ed] both procedural and arithmetic error.” The review
appraiser did not send the appraisal report back to the appraiser for correction and
clarification or additional support. In March 1992, having approved the single acceptable
appraisal, the Service offered $2.26 million to the landowner, who rejected the offer.

In 1994, the Service resumed efforts to acquire the land. By this time, property adjacent to
the landowner’s site was subdivided and developed (as envisioned in the appraisal that had
not been accepted), and the zoning of the land had changed from agricultural land with
residential development potential to residential subdivision. The Service obtained an update
to the appraisal that previously had not been accepted and. based on this updated valuation,
offered the landowner $4.26 million, which the lando\\ner accepted. In our opinion, because
more than 2 years had elapsed and market conditions had changed since submission of the
initial appraisal, the initial $2.26 million appraisal was no longer valid as a second appraisal.

      Appraisal Review and Approval. Overall. n-e found that the Service complied with
the revien- and approval requirements in 98 percent of the cases we revien-ed (200 out of 205
fee acquisitions). The Service’s Appraisal Review Handbook requires that appraisals be
revie\ved and approved by an appraisal professional on behalf of the Service and that. if the
review appraiser rejects the appraisal and establishes a different fair market value, the new
\.alue be approved by the Service’s Chief Appraiser. However. \ve found that the Sen-ice did
not perform appraisal reviews for two tracts containing 130 acres \\-hich were acquired for
a total of $87.000 and that the Chief Appraiser had not approlred the fair market \.alues
established by the review appraisers. who had rejected appraisals for three tracts containing
2.100 acres which lvere acquired for $1.88 million. For example. two appraisals ivere
prepared for two tracts containing 3 15.58 acres that were to be added to the Stelvart B.
McKinney National Wildlife Refuge in Connecticut. Ths first appraisal. kvhich was prepared
by a contractor and established an average value of 53,623 per acre. was rejected b> the
review appraiser who said that the valuation was not a reasonable estimate of market \-alue.
The review appraiser also rejected the second appraisal, which was prepared by a Service
appraiser and established an average value of about $1,500 per acre. stating that “[i]n general
the report is poorly written and does not support its projected use or value.” Having rejected
both appraisals, the re\,iew appraiser determined that the fair market value of the property
was $2.000 per acre, which was used to establish just compensation. However, there was
no documentation in the file to support the review appraiser’s fair market value estimate or
to show that the Chief Appraiser had reviewed and approved the \.aluation.




                                               8
      Appraisal Updates. The Service’s Appraisal Han;lbook states that the Service should
“consider updating an>’ appraisal over 6 months old as \vell as any appraisal that may be
outdated due to extraordinary market conditions.” Ho\\ ct\er. because the Handbook does not
require that this process be documented, no documentation was prepared. Accordingly, we
could not determine whether the Service considered updating the appraisals for 101 of the
 122 acquisitions we identified in which more than 6 months had elapsed from the date the
appraisal was prepared to the date that the purchase agreement was signed or whether the
Service had determined that the valuations of the properties were still valid. The 101
appraisals included 36 acquisitions totaling about $19.5 million for which the elapsed times
were from 1 to 3 years and 3 acquisitions totaling about $906,000 for which the elapsed
times were more than 3 years.

Boundary Surveys

Part 343, Chapter 1, of the Service Manual requires sun.eys to be made of tracts that form
the boundary of Service lands, that require accurate area determination, or that involve
adverse claims or disputes over boundaries. However. we found that the Service did not
obtain boundary surveys in 10 (2,033 acres acquired for S5.48 million) ofthe 52 acquisitions
reviewed which required these surveys. Therefore. the Service did not have sufficient
assurance that it paid market value for these acquisitions. In six cases. the acreage to be
appraised or conveyed was disputed or questioned. and in four cases. the tracts were on the
boundaries of refuges. In two of the six cases that had acreage disputes, the reviewing
appraisers said that the acreage needed to be determined or confirmed by the Ser\ice’s
Branch of Surveys and Maps. A Service official said that some regions did not obtain
boundary surveys because of the high cost of contract sur\.eys and the length of time
required to contract for and complete the suweys.

We also identified 32 acquisitions (5.794 acres acquired for $20.2 million) in which the
appraised values Lvere based on the number of acres stated in deed records but for which the
boundary surveys shokved that the propert). consisted of a different amount of acreage. In
these cases, the Ser\.ice had prepared and signed purchase agreements based on a fixed price
for the property independent of the actual acreage con\.e\ed. However. the Service did not
require that the purchase price be ad_justed to reflect the actual acreage determined by a
boundary survey. As a result, the Service. in 29 cases. may have overpaid landowners about
$738,063 because the number of acres in the appraisals \vas overstated by about 378 acres
and, in 3 cases. may have underpaid landowners about $115,06 1 because the number of acres
in the appraisals was understated by about 22 acres.

For example, the boundary survey reports for two tracts being acquired for the Stewart B.
3lcKinney National Wildlife Refuge identified a total of 3 16.4 acres for both parcels.
Hotvever, according to the reports, 163.9 of the 3 16.4 acres Lvere covered by water from
\,arious creeks and inlets to the mean high water line and should have been excluded from
the acquisition. The Service paid the landowner a total of S627.560 for 3 16 acres. However,
only 152.5 acres conveyed to the Service, as the warranty deeds specifically excluded the
conveyance of “all portions of said tract which are covered by the waters of various creeks


                                             9
and inlets to the mean high water line.” Therefore. the Service in effect paid the lando\\-ner
$326,749 for acreage that did not con\.++ to the Service.

We believe that in cases where boundan- surveys are required, the Service should prepare
purchase agreements which state that the sales price of the land is subject to adjustment
based on the results of a boundary survey. particularl). Lvhen the variance in acreage in the
appraisal and the boundary survey is significant. Such a practice would protect the interests
of both the landowner and the Service, ensuring that the appraised per-acre valuation is
reflected in the purchase price.

Wetland Easements

The Service did not ensure that wetland easements were obtained at market value because
the values were not based on current data. During fiscal years 1995 and 1996, the Senice
acquired 462 perpetual easements on 22:261 acres at a cost of $3.5 million. The Sewice
established values of wetland easements by applying valuation factors that were established
in a 1984 study. This study estimated the effect of the M-etland easements on the resale value
of easement-encumbered properties in eight geographic areas in North Dakota. South
Dakota, and Minnesota. Based on these factors, the Service developed wetland easement
indices that provided for landowners to receive payments ranging from 30 to 90 percent of
the fee value (the value for outright purchase) of the area covered by the easement.

Even though the 1984 study showed that the easements had no statistically significant impact
on land kralues in five of the eight areas. the Service established easement indices rhat
provided for payments ranging from 30 to 60 percent of the fee value for the five areas. In
August 1990, the Service revised its easement indices, lvhich provided lando\vners a
minimum payment of 50 percent of the fee value of their land for easements on land in the
five nonimpacted areas. Service officials said that the wetland easement program \vas a
voluntary program and that the landoivners would not agree to the easements if they did not
receive sufficient compensation. Hon-ei-er. the Ser\-ice had not conducted any formal
analysis to determine whether a reduction in the payments would negatively affect lando\\-ner
participation in the program. Based on our review. \ve concluded that the Service spent
about $1 million to purchase 118 Lvetland easements on 2. 903 acres on properties which \\.r3re
determined not to be financially impacted by the easements. Overall. we concluded that the
Service did not have sufficient assurance that it paid market value for the 462 lvetland
easements it obtained at a total cost of about $3.5 million because the factors used to
establish the easements’ values were not based on current data.

Recommendations

We recommend that the Director. U.S. Fish and Wildlife Service, ensure that:

       1. Requirements for preparing, re\-iewing, approving. and updating appraisals are
followed. Specifically, the Sewice should obtain appraisals for all land acquisitions. ensure
that appraisals are properly revieived and approved, obtain two acceptable appraisals for land


                                              10
estimated to be valued at more than $750.000. and update appraisals that are more rhan
6 months old or document the files to support the basis for not updating the appraisals.

      2. Boundary surveys are conducted in accordance with the Service’s requirements.

      3. Purchase agreements are prepared that provide the Senice an opportunity to revise
the sales price of the property based on the actual acreage conveyed, as determined by a
boundary survey.

     4. An analysis is performed to update the factors used to establish market value for
wetland easements and to determine whether payments to landowners could be reduced
without a significant negative impact on landowner participation in the easement program.

U.S. Fish and Wildlife Service Response and Office of Inspector General
Reply
In the September 1, 1998, response (Appendix 3) to the draft report from the Director,
U.S. Fish and Wildlife Service, the Service concurred with Recommendations 1 and 2 and
did not concur with Recommendations 3 and 4. Based on the response, we consider
Recommendations 2 and 4 resolved but not implemented and request that the Service
reconsider its response to Recommendations 1 and 3, which are unresolved (see
Appendix 4.)

Recommendation 1. Concurrence.

         Fish and Wildlife Service Response. The Sewice stated. “Service requirements as
currently written have been largely follokved to date, but \ve are not adverse to updating and
clarifying those requirements. when such updates and clarifications are practical and do not
conflict with sound realty practices.” The Service further stated that it is proposing to amend
the Appraisal Review Handbook “to clari@ the distinction bet\veen ‘re_jetted‘ appraisals and
‘accepted but not approved’ appraisals”: to specify that “when two appraisals are required.
both should be acceptable for payment as provided by the Appraisal Review Handbook”: and
to revise the expiration time for appraisals from 6 months to 1 year (at Lvhich time the
appraisal would be validated or updated) and require that the files be documented to she\+
the actions taken.

        Office of Inspector General Reply. Although the report recommended that existing
requirements for preparing. revie\\-ing, approving. and updating appraisals be follo\ved. we
believe that the Service’s proposal to amend its Handbook to clarify or revise those
requirements will improve the integrity of the appraisal process. However, the &n-ice did
not identify specific actions for ensuring compliance with these requirements. such as
issuing a memorandum similar to the memorandum described in the Service’s response to
Recommendation 3. Accordingly. we consider the recommendation unresolved.




                                              11
Recommendation 3. Nonconcurrence.

        Fish and Wildlife Service Response.          The Service disagreed with the
recommendation, stating, “We perceive serious difficulties with this policy.” The Service
also stated:

       We believe that our current regulations, properI\. understood and applied, do
       appropriately address this complex issue: [Those regulations state that] “[t]he
       purchase price may be negotiated on a lump sum or per hectare (acre) basis.
       Factors that influence the choice of approach are local custom, size of
       property, and reliability ofthe acreage estimate. Generally, a lump sum price
       offer is more acceptable to a landowner since there is no question as to the
       amount of money to be paid. However, in case of large properties where
       there is a real question as to the quantity of land involved, the per hectare
       (acre) approach may be the most desirable. . .I’

The Service further stated that it will “issue a memorandum reemphasizing the importance
of complying with Service requirements and accentuating the need for consistent application
of current policy.”

         Office of Inspector General Reply. In 11 of the 32 acquisitions in which there was
a difference betkveen the appraised acreage based on deed records and the conveyed acreage
based on boundary surveys. the difference \vas significant (more than 5 percent). For
example, in one case, as described in the report. a landowner ma>- have received excessive
compensation of about $327.000 because the acreage used in the appraisal was overstated,
while in three other cases, the landowners could ha\-e received additional compensation
totaling about $145,000 if the appraisals had been based on the correct acreage.

We acknowledge that the Service’s policy allo\vs for negotiating the price on either a lump
sum or per acre basis. However, in our opinion. the Senice should use the per acre method
Lvhen boundary surveys are required under the Ser\-ice’s regulations, and the purchase
agreements should allow for an adjustment of the purchase price if the boundary sun’e\
identifies a significant variance in recorded and actual acreage. We believe that such a
practice would help ensure that the interests of both the Service and the landowrner are
adequately protected.

Recommendation 4. Nonconcurrence.

        Fish and Wildlife Service Response. The Service agreed to perform the
recommended analysis and stated that it would a\\-ard a contract or contracts for a ne\\
wetland easement study. However, the Service also stated that it “cannot agree that it [the
study] should be ‘to determine whether payments to landobvners could be reduced.“’ The
Service further stated that it “will not commit to a specific method of measuring Just
Compensation. except to say that the formula should consider appropriate valuation factors.
and payments should entice actual owners to enter into actual agreements under actual. real
lvorld. conditions.”

                                             12
        Office of Inspector General Reply. The recommendation was based on two
concerns: (1) the Service may have been paying excessive amounts for wetland easements
because the factors it used to determine compensation \f-ere not based on current market data
and (2) the Service had not performed a recent documented analysis to determine whether
the rates of compensation were more than necessary to achieve a satisfactory level of
landowner participation in the program.

Although the Service nonconcurred with the recommendation, we believe that the Service’s
plans to contract for a new wetland easement study will address these concerns if the
contractor is directed to ensure that the levels of compensation for “enticing actual owners
to enter into actual agreements” are not excessive for achieving sufficient participation in the
program to provide adequate protection of the wetlands areas. We consider the
recommendation resolved but not implemented.

Comments on Audit Finding

The Service also provided comments on our finding. The Service’s comments and our
replies are as follows:

General Comments

        Fish and Wildlife Service Comments. In its response, the Service stated:

       The report states that the Semite “did not fully comply with its requirements”
       in 148 of 305 acquisitions. This is incorrect. UThile a very small number of
       deficiencies are acknowledged. which will be addressed. the Service has
       conducted a credible and effective real estate program. In the preponderance
       of cases, the Service did manage its land acquisition program in accordance
       with its written requirements and recommended procedures. The Service
       takes issue with the audit’s interpretation and application of its requirements.

       For example. the 148 cases include 10 1 cases \\%ere the audit merely found
       that appraisals over 6 months old had been used. Such appraisals can be
       valid if market conditions have been stable. as they generally have been in
       recent non-inflationary times. The report says that there \vas “no indication
       that the Ser\?ce had considered updating the appraisals” (page 7). but in fact
       there is no requirement for this.

       In addition. we take exception to the way in which the Service and Service
       officials are portrayed. In numerous instances. the report portrays “Service
       officials,” as caring nothing for Service regulations, policies, and procedures.
       For example. the report states that “Services officials said that they did not
       always comply with these requirements in an effort to expedite the
       acquisition process, minimize the cost of land acquisition. and/or provide
       landowners with incentives to participate in the Service’s ‘n-illing seller’ land
       acquisition program” (page 4). These alleged quotes do not represent the

                                              13
        views of the Service. and the), do a disservice to our dedicated career realty
        professionals. We object to this inaccurate presentation.

        Office of Inspector General Reply. Regarding our statement in the draft report that
the Service did not fully comply with its requirements in 148 of the 305 acquisitions we
reviewed, we acknowledge that in some cases, the Service’s guidance did not require certain
actions. Specifically, although the Service’s Handbook (1) states that the Service should
“consider updating any appraisal over 6 months old,” it does not require that this action be
documented; (2) requires that two appraisals be obtained in certain cases, it does not require
that both appraisals be acceptable; and (3) requires boundary surveys to be conducted for
certain acquisitions, it does not require that the purchase price be adjusted if the boundary
survey indicates that the acreage used to establish the purchase price was significantly
understated or overstated. We have clarified the report (page 5) to state that the deficiencies
related to these procedures were attributable to insufficient requirements rather than to
noncompliance with existing requirements. However, we believe that these procedures
should be mandatory rather than discretionary.

We disagree with the Service’s statement that “appraisals [over 6 months old] can be valid
if market conditions have been stable. as they generally have been in recent non-inflationary
tihes” because there are factors other than inflation that could affect the validity of the
appraisals. such as zoning changes and market conditions. We further disagree with the
Service’s position that there is no need to review appraisals lvhich are in some cases 3 years
old because market conditions remained stable. We question how the Service can determine.
without reviewing the appraisal, that the conditions cited in the appraisal have remained
stable. Furthermore, the files did not contain any documentation to show that appraisals
more than 6 months old had been reviewed. Consequently. we could not determine whether
the appraisals (some of \vhich \\-ere more than 3 years old) had been reviewed to determine
whether they were still valid.

Regarding the Service’s statements pertaining to quotes in our report “not represent[ing] the
viecvs of the Service” and to the quotes “do[ing] a disservice to our dedicated career realt)
professionals.” the report does not state or imply that the statements made b>- these
individuals represented the official views or position ofthe Service. These statements are not
“alleged ” but were made by these individuals during the audit in response to our questions
as to why certain procedures were not followed. The statements are documented in the form
of memoranda for the record in the audit working papers.

Appraisal Preparation

        Fish and Wildlife Senice Comments. The Service stated:

        Of the 6 cases cited as deficient, one was apparently an instance where the
        audit team was unable to identify the appraisal because the name of the seller
        had changed. Others bvere instances where the appraisers had prepared a
        “memorandum of value” or “value opinion” instead of an appraisal, and one
        was a case where the appraisal had been made but could not be located.

                                              14
        While any deviation from the Service’s appraisal policy is a concern. the
        audit indicates that the Service complied with its appraisal preparation policy
        over 98 percent of the time.

        Office of Inspector General Reply. Regarding the Service’s statement pertaining
to our audit not being able to identify the appraisal “because the name of the seller had
changed,” we found that the appraisal was not in the acquisition files for this transaction
during our field visit to the Southeast Region in March 1997, and we asked the Regional
officials to locate the appraisal. The officials were not able to provide us with the appraisal
by the time of our audit survey exit briefing in April 1997. However, the Service did
provide us a copy of the appraisal at our May 1998 exit conference. Accordingly, we have
revised the audit report (page 6) to indicate that only one appraisal rather than two appraisals
was not provided to us.

Regarding the four acquisitions for which an appraisal was not obtained, we acknowledged
in the report (page 6) that the Service had prepared either an “assessment of value”
memorandum or a “value opinion” for establishing market value of the property. However,
preparation of these documents in lieu of obtaining a formal appraisal is not an acceptable
practice under the Service’s Handbook.


Two Appraisals

        Fish and Wildlife Service Comments. The Service disagreed with our finding
concerning compliance kvith its policy for obtaining two appraisals for certain acquisitions.
Specifically. the Service stated that there is no specific requirement that both appraisals be
“accepted.” The response stated. “The purpose of the Ser1.ice.s t\vo appraisal policy is to
obtain an approved appraisal in Lvhich the Service can have confidence. An appraisal that
is not ‘acceptable’ due to one or more fla\vs can still pro\.ide secondary facts and opinions
that increase the Service’s confidence in the approved report.”

Regarding the examples in the report. the Service stated:

        We note that in the first case these t\vo appraisals support one another, being
        less than five percent divergent from the mean. and the final approved value
        Leas bracketed by the appraisals and di\.erged by less than 2.5 percent from
        their average. We wish that all valuation efforts \vere this unequivocal.

        In the second case, the report contends that: “Although the Appraisal
        Handbook states that updating appraisals ‘is a matter of appraisal judgment.’
        it also states that conditions such as ‘a change in the highest and best use . . .
        will require a full reappraisal’” (page 6). As a matter of fact. the Appraisal
        Handbook does not say that. The Appraisal Handbook says: “11 is possible
        that long delays in negotiations, radical changes in the marketplace, or
        changes in highest and best use of the property M-ill require a full reappraisal.
        This is a matter of appraisal judgement.”
        Regarding the specific example. the revie\\cr first took the conservative
        course by accepting and appro\-ing the lower appraisal. When subsequent
        events pointed to the higher appraisal as the better measure, the Service
        ordered an update of that appraisal - as opposed to a certainly more
        expensive, but not necessarily more reliable, full reappraisal. As stated in the
        Appraisal Handbook, this was a matter of appraisal judgment. Since that
        updated appraisal was approved, which certainly shows acceptance and
        expurgation of the earlier “rejection.” the Service did indeed obtain two
        acceptable appraisals in support of this acquisition.

         Office of Inspector General Reply. We acknowledge that the Service’s guidance
does not specifically require both appraisals to be “acceptable” and have revised the report
accordingly (page 7). However, we believe that the Service should require both appraisals
obtained and used to establish just compensation during the land acquisition process
(whether from a contractor or a Service appraiser) to be acceptable products that meet
appraisal standards and provide a supportable estimate of market value. The Service cited
the expensiveness of a reappraisal as a reason for some of the instances of deviating from
existing procedures, but the Service appears to be Lvilling to bear the full cost of an
unacceptable appraisal. Even though. in the Sewice’s opinion, a flawed appraisal can
increase the Service’s confidence in the approl-ed appraisal, we believe that the Service, if
it is going to incur the expense of obtaining an appraisal from a contractor or a Service
appraiser. should make the most efficient use of the funds and obtain a product that meets
standards and also provides as much useful and accurate information as possible.

Regarding the Service’s comments on the first example that the difference between the two
appraisals was small and that the appraisals support one another. there was a difference of
$120.000 (over 10 percent) bet\veen the two appraisals. In addition, the main point of this
example was not to show the difference bet\\.esn the t\vo appraisals but to show that e\.en
though two appraisals were obtained. the just compensation established by the Service was
not based on an accepted and properly appro\.ed appraisal.

Concerning the second example. \ve acknolvledge that an update of the originally rejected
report in lieu of replacing it with a ne\v appraisal was acceptable, and \ve have revised the
report (page 8) to remove statements that took exception to the update. Holvever. \ve do not
agree that the Service met its two-appraisal requirement on this acquisition. Since more than
2 years had elapsed and there \vas a significant change in conditions. the other appraisal
citing a value of $2.26 million. which \vas obtained in late 1991, \vas not valid in 1994. In
our opinion, the Service should have obtained another current appraisal.

Appraisal Review and Approval

       Fish and Wildlife Service Comments. Regarding the finding pertaining to the
Service not performing appraisal reviews in some cases and to the Chief Appraiser not
approving the fair market value established by the review appraisers in other cases, the
Service stated:

                                              16
        In the first category, there \vere apparentl!. some reviews that were
        overlooked in the audit. In the second categoq. there were reviews that were
        not acknowledged because they Lvere performed b>. other regional revie\vers,
        not the Chief Appraiser. While these reviews may not have been done at a
        “higher level” as technically required by Service regulations. they were
        performed by competent review appraisers and the spirit , if not the precise
        letter, of the appraisal review mandate was followed.

        Office of Inspector General Reply. Based on additional information provided by
the Service during the exit conference in May 1998, we have revised our report (page 8) to
state that appraisal reviews were not performed in two, rather than four, of the cases we
reviewed. Concerning the three cases in which the Chief Appraiser did not approve the
values established by review appraisers, we acknowledged that for two cases, the review
appraiser’s value was reviewed and approved by another regional review appraiser.
However, because the designated higher-level official, the ChiefAppraiser, had not approved
the appraised value, the reviews did not receive the level of scrutiny established by
regulation. Therefore, we do not agree with the Service’s statement that the “spirit . . . of
the appraisal review mandate” was follo\ved. In the remaining case (Tract #29 at Bald Knob
National Wildlife Refuge), the review appraiser’s established value was not reviewed and
approved by another review appraiser or by the Chief Appraiser.

Appraisal Updates

         Fish and Wildlife Service Comments. Regarding the Service’s compliance m?-ith
the requirement that consideration must be given to updating any appraisal over 6 months
old, the Service stated that the appropriate considerations kvere given but that these
considerations \vere not documented because “Service regulations . . . do not require the
creation of any additional documentation when appraisals are still valid.” The Service further
stated, “The absence of supplemental updates as required by the Handbook is evidence that
such changes were unnecessary.”

        Office of Inspector General Reply. We ha\-e clarified our report (page 9) to
acknowledge that the Service’s guidance does not require documentation to be prepared to
support that appraisals over 6 months old were considered for updating. However. Iye
believe that requiring documentation of update consideration is a necessary internal control
mechanism to ensure that the procedures are follolved. We disagree with the Service’s
statement that “the absence of supplemental updates is evidence that such changes lvere
unnecessary” because, in the absence of documentation. there is no assurance that the
appraisals were even reviewed. HoLvever. in response to our recommendation, the Service
said that it would include the appropriate documentation in its files.

Boundary Surveys

       Fish and Wildlife Service Comments. Regarding the Service’s practice of using
the “lump sum price offer” approach and purchasing land on the basis of deeded acres as
opposed to acres defined by boundary surveys. the Sen,ice stated:

                                              17
        It is not our policy to uniformly base payments on boundary surveys. nor is
        it a commonly accepted real estate practice. Land acquisition payments are
        not invariably made on the basis of the surveyed acres, and precision in the
        measurement of acquired tracts does not necessarily increase the reliability
        of valuations. In some markets, it is common practice to buy and sell
        property based on deeded acres; in other markets. tracts are bought and sold
        based on lump-sum negotiations; and in others. custom dictates a formal
        survey. The Service Manual states that “the purchase price may be
        negotiated on a lump sum or per hectare (acre) basis . . . . Generally a lump
        sum price offer is more acceptable to a landowner since there is no question
        as to the amount of money to be paid.” The report is interpolating and
        presuming regulations that do not actually exist; it did not apply the Service’s
        regulations as they are written in the Service Manual. The report’s citation -
        that the Service bought land on the basis of deeded acres as opposed to
        boundary surveyed acres - is not a violation of Service policy or of sound
        realty practices.

         Office of Inspector General Reply. We reported that the Service did not obtain
boundary surveys in 10 of the 52 acquisitions in which boundary surveys were required and
that the Service therefore did not have sufficient assurance that it paid market value for these
acquisitions. For the 32 acquisitions in which there were differences between the deeded
acreage and acreage identified by boundary surveys, \ve concluded that the Service may not
have paid market value in these cases. We have revised the report (page 9) to clarify: that the
Service does not require the purchase price to be adjusted to reflect the actual acreage
determined by the boundary survey. However, we concluded that the Service. in order to
better protect the interests of both the Service and the landolvner, should establish a
requirement that purchase agreements provide for the adjustment of the purchase price in
instances where the variance in the acreage in the appraisal and the boundary sumey is
significant.

Wetland Easements

        Fish and Wildlife Service Comments. Regarding our statement that \l-etland
easement payments were not based on current data. the Service said. “This is only partially
true.” The Service further stated. “While the base stud>‘ dates from 1984, the payment
formula requires the input of current market land values.” The Ser\.ice further stated that the
study “was revisited and revalidated by a review committee in 1992.” The Sercice also
stated:

        We are in agreement that it is nearly time to revisit and update the wetlands
        easement study. but we do not agree that the Service lacks assurance that it
        \vas paying fair value for its wetland easements. . . . About 30 to 40 percent
        ofthe landowners who inquire about wetland easements subsequently decline
        to enroll their land. . . . It is simple economics: if the Service were indeed


                                               18
       offering more than market value, lando\vners \\-ould not be turning the offers
       down.

        Office of Inspector General Reply. We were aware that the 1984 study was
evaluated by a review committee in 1992, which concluded that the process was still valid.
However, based on the memorandum that resulted from that effort, there was no indication
that the review committee had updated the regression analysis using current market sales
data. In addition, officials at the Denver Region said that the regression analysis which
served as the basis for the factors developed in the 1984 study had never been updated using
current market sales information.

Regarding the statement made by the Service that it was not offering more than market value
based on “simple economics” because landowners were not accepting the Service’s offers
on wetland easements, we were not able to reach this same conclusion because we had no
information supporting why landowners declined to enroll their land in the Service’s wetland
easement program. There are other factors that could potentially affect a landowner’s
willingness to participate in the program, such as the landowner’s willingness to w-ork with
the Federal Government, conservation programs and state and local regulations concerning
wetlands, and a landowner’s reluctance to place land under easements that restrict the use
of those lands.




                                             19
B. PAYMENTS TO LANDOWNERS

The U.S. Fish and Wildlife Senice did not ensure that payments to acquire grassland
conservation easements and refuge land were necessan~ and appropriate. The Service’s land
acquisition guidance does not provide for payments to landowners for future or prior year
property taxes or for weed control expenses. However. Service officials said that they paid
landowners for these costs because they believed that the payments were necessary to fully
compensate the landowners for the easements. Also, although the Service had established
procedures for transacting land acquisitions with nonprofit organizations, it did not provide
sufficient oversight to prevent payments for unallou.able or unsupported expenses or to
ensure that procedures for acquiring land from these organizations were followed. As a
result, the Service inappropriately paid 22 landowners $207,425 for expenses related to
grassland conservation easements and compensated 3 landowners $66,504 for expenses that
were not the liability of the Service. In addition. the Service reimbursed nonprofit
organizations for costs of $438.680 that were unsupported and/or ineligible for
reimbursement under letters of intent (16 acquisitions) and for costs of $189,322 that were
ineligible for reimbursement without letters of intent ( 11 acquisitions).

Grassland Easements

In acquiring grassland easements, the Service’s North Central Region inappropriatelj
compensated landowners for future property taxes ($79.943) and future kveed control costs
($127,482) related to the easements. Regional officials said that these payments were made
because. under the grassland easement agreements. the lando\\ner is required to pa>’ property
taxes and control Lveeds, even though the land may ha\.e little economic value because ofthe
easements’ restrictions on agricultural use.

In fiscal years 1995 and 1996, 20 of the 22 grassland easements acquired by the North
Central Region included compensation totalin g $79.943 for future property taxes.’
According to staffappraisers. provisions for tax payments were not included in two grassland
easements because easement restrictions would lower rhe propert)’ values. thus reducing
taxes. Because the Service had not determined w%at effect the easements would haire on the
property values of the 20 other landou-ners, we consider the compensation for future taxes
to be inappropriate. Furthermore. \ve found that this practice Lvas inconsistent Lvith that of
the Denver Region, which obtained grassland easements Lvithout paying the lando\vners for
these expenses. During our revie\v. the North Central Region’s Chief of the Realty Division
said that the Region was going to discontinue the pracrice of compensating landowners for



‘The Service computed the amount of the lump-sum payment for ;:opem tases by estimating the amount of
the annual tax on the land under the easement and dividing the anr. _a1 tax amount by the I-~‘ear U.S. Treasury
bill interest rate in effect at the time of appraisal. The Service sai’i .hat
                                                                         - this method would provide sufficient
compensation to the landowner ifthe lump-sum payment was invesred in a Treasury bill and the interest earned
each year was used to pay the taxes. Property tax and weed contrcl (discussed in footnote 9) compensation
\vas included in the appraisals as part of the just compensation. as determined by North Central Region
personnel.

                                                     20
future taxes because it had determined that the land does have economic value. even if the
land is under easement.

In fiscal years 1995 and 1996, the 22 grassland easements acquired by the North Central
Region provided payments totaling $127,46 1 for future weed control costs.9 We believe that
these payments should be discontinued because the landowners are required to control weeds
under county requirements. Therefore, these costs are not incurred solely for the benefit of
the Federal Government.

Rollback Tax Payments

The Service’s Real Property Manual (Part 342 FW 4.15K(3)) states, “The owner is entitled
to reimbursement of the pro rata portion of any prepaid real property taxes which are
allocable to the period after the United States obtains title to the property or effective
possession of it, whichever is earlier.” However, to facilitate the acquisition of three tracts
of land for the Wallkill River National Wildlife Refuge in New Jersey in October 1994 and
January 1995, the Service’s Northeast Region reimbursed landowners for taxes that were
assessed on the properties in November 1993 for tas years 199 1,1992, and 1993 (before the
Service acquired the property). The rollback taxes were assessed by the County Board of
Taxation because the owners had removed their land from the New Jersey Farmland
Assessment Program and their land had been reclassified from general farming use to
residential subdivision use (prior to the Service’s appraisal). Since the property taxes were
assessed for the period before the landow-ners started negotiating with the Service and before
the Service took possession of the land, we concluded that the landowners were compensated
$66.504 for expenses that were liabilities of the landouners and not the Service.

Nonprofit Organizations

In August 1995. the Department of the Interior issued “Clarifications to August 10. 1983
Guidelines for Transactions BetLveen Nonprofit Organizations and Agencies of the
Department of the Interior,” which provided guidance on real estate transactions bet\veen
Departmental bureaus and nonprofit organizations. The guidance pertained to land purchases
transacted pursuant to letters of intent, lo lvhich establish a cooperative arrangement between
a Federal agency and a nonprofit organization that “intend[s] to acquire land for subsequent
conveyance to a Federal agency.” According to the guidance, letters of intent should disclose
the nonprofit organization’s estimated purchase price or other consideration for the land and
the Service’s purchase price should be either (1) the fair market value of the property based


“The Service computed the amount ofthe lump-sum pab’ment for weed control in a manner similar to that llsed
to calculate the payment for taxes. The annual weed control cost \vas estimated by multiplying the total number
of acres under the easement by the estimated annual maintenance cost per acre.

“According to the Department’s guidelines, a letter of intent should be used whenever (I ) a nonprofit
organization seeks prior assurance from a Federal agency that the agency has an interest in and an intent to
take conveyance of land acquired by a nonprofit organization or (2) a Federal agency’ requests the assistance
of a nonprofit organization in a proposed acquisition.

                                                      21
